HHS/OIG, Audit -"Audit of Medicaid School-Based Services in Texas,"(A-06-02-00047)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid School-Based Services in
Texas," (A-06-02-00047)
December 21, 2005
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Texas Health and Human Services
Commission (the State agency) claimed Federal reimbursement for school-based health services
in accordance with Federal and State requirements.  We found that 991 of sampled claims
did not comply with Federal and State requirements.  The State agency claimed reimbursement
for services that were (1) not allowable because of programmatic deficiencies or (2) rendered
by unlicensed providers.  We estimate that the State agency inappropriately claimed
at least $8,749,158 in Federal reimbursement during State fiscal year 2000.  In addition,
school districts were overpaid $53,235 for counseling services because they were paid more
than the maximum allowable fee established by the State agency.
We recommended that the State agency:  (1) refund to the Federal Government $8,749,158
for unallowable services, (2) work with the Centers for Medicare & Medicaid Services
to determine the financial impact to the Federal Government for overpayments made by the
State agency for counseling services and make an appropriate refund, (3) review periods after
our audit period and make appropriate financial adjustments for any unallowable services,
(4) routinely monitor claims from school districts for compliance with Federal and State
requirements, (5) direct school districts to ensure that providers of services meet licensing
requirements, and (6) issue guidance requiring school districts to bill only for allowable
Medicaid services rendered by licensed individuals.  State agency officials said that
they would need to complete a number of steps before addressing most recommendations.